CERTIFICATE OF SERVICE

No. 21-

Kenneth R. Kunzer,
Petitioner,
v.
Lisa A. Hiniker, ET AL.,
Respondents.

I certify that I have not sent Respondent’s notification of this Petition for
Writ of Certiorari on the grounds they are not on file in the United States District
Court District of Minnesota, Case no. 20-0882 (JRT/KMM), as being served the
summons and complaint. At the present time the named respondents are not a
party to this action.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on April 4, 2021
Kenneth R. Kunzer
9350 Lake Road
Woodbury, MN 55125
State of Minnesota
County of Washington
Signed and sworn to before me on April, 4, 2021, by Kenneth R. Kunzer.

&

KATHRYN ANN PARENTEAU
NOTARY PUBLIC
MINNESOTA
My Commission Expires Jan. 31,2022

I itkhiM
Kjathryn'Ann Parenteau
Notary Public

RECEIVED

My commission expires: Jar. 2’^^)'^
SUPREM^COnRT1-^^

